CERTIFICATE OF COMPLIANCE
I petitioner, Efrain Areizaga, certify under penalty of perjury under
the laws of the United States of America that the foregoing is true and
correct that petitioner’s brief complies with the font Century Schoolbook,
type-volume limitation of U.S. Supreme Court rule 31 because it has a
typeface of 12 points and contains 8,356 words as determined by the
word-count function of Microsoft Word excluding the parts of the brief
exempted by the U.S. Supreme Court Rules.
Executed on May 22, 2020.

Efrain Areizaga, Pro Se
Petitioner
4241 Rufe Snow Drive, Apt. # 1423
North Richland Hills, Texas 76180
Telephone: (469) 297-0216

l

